Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




TENNESSEE STATE MEDICAID
  FRAUD CONTROL UNIT:
   2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                         April 2013
                       OEI-06-12-00370
EXECUTIVE SUMMARY: TENNESSEE STATE MEDICAID FRAUD CONTROL UNIT:
2012 ONSITE REVIEW
OEI-06-12-00370

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) is responsible for overseeing the activities of all Medicaid
Fraud Control Units (MFCU or Unit). As part of this oversight, OIG conducts periodic reviews
of all Units and prepares public reports based on these reviews. The reviews describe the Units’
caseloads; assess performance in accordance with the 12 MFCU performance standards; identify
any opportunities for improvement; and identify any instances of noncompliance with laws,
regulations, and policy transmittals.

HOW WE DID THIS STUDY
We based our review on an analysis of data from seven sources: (1) a review of policies,
procedures and documentation of the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of Unit
staff; (5) structured interviews with the Unit director and supervisors; (6) an onsite review of
case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND
For Federal fiscal years 2009 through 2011, the Tennessee Unit obtained 96 criminal convictions
and 22 civil settlements, and reported recoveries of over $181 million. We identified one
instance of noncompliance with applicable laws, regulations, and policy transmittals: the Unit
investigated a case that was not eligible for Federal funding under Federal regulations. With the
exception of this instance, our review of compliance issues found no evidence of significant
noncompliance with applicable laws, regulations, or policy transmittals. We identified two
instances in which the Unit did not fully meet Performance Standards. The Unit referred all
convicted health care providers to OIG for program exclusion, but did not refer nonprovider
convictions. Although the Unit had a training plan, it did not establish training hour
requirements for each professional discipline. Additionally, despite Unit efforts to increase
referrals, the State Medicaid Agency and managed care organizations sent a small number of
fraud referrals to the Unit. Finally, Unit staff and stakeholders reported that involvement on
various task forces was key to the Unit’s productivity.

WHAT WE RECOMMEND
On the basis of these findings, we recommend that the Tennessee Unit: (1) repay grant funds
spent on the case that, under Federal regulations, was not eligible for Federal funding; (2) refer
all convictions to OIG, including nonprovider convictions, within 30 days; and (3) establish
training hour requirements for professional disciplines. The Unit did not concur with our first
recommendation. The Unit stated that it felt the case in question was within its purview. We
disagree with the Unit’s opinion because the case in question was not one of the three eligible
case types specified by Medicaid statute and Federal regulations: investigation of allegations of
fraud in the administration of the Medicaid program, in the provision of Medicaid services, or in
the activities of Medicaid providers. The Unit should work with OIG to determine ineligible
costs.
TABLE OF CONTENTS
Objective ..................................................................................................................1 

Background ..............................................................................................................1 

Methodology ............................................................................................................4 

Findings....................................................................................................................7 

           For FYs 2009 through 2011, the Tennessee Unit obtained 96 criminal                                                     

           convictions and 22 civil settlements, and reported recoveries of                                                           

           $181 million .................................................................................................7 

           The Unit investigated one case that, although related to an appropriate
           case, was not eligible under Federal regulations for Federal funding .........8 

           The Unit referred all convicted health care providers to OIG for                                                                   

           program exclusion, but did not refer nonprovider convictions ....................8 

           Although the Unit had a training plan, it did not establish
           training-hour requirements for each professional discipline .......................9 

           Despite Unit efforts to increase referrals, the State Medicaid agency 

           and MCOs sent a small number of fraud referrals to the Unit .....................9 

           Unit staff and stakeholders cited involvement on various task                                                                  

           forces as key to productivity ......................................................................11

Conclusion and Recommendations ........................................................................12 

           Unit Comments and Office of Inspector General Response ......................13 

Appendix................................................................................................................14 

           A: Performance Standards for Medicaid Fraud Control Units .................14 

           B: Unit Comments ....................................................................................18 

Acknowledgments..................................................................................................20 

                  OBJECTIVE
                  To conduct an onsite review of the Tennessee State Medicaid Fraud
                  Control Unit (MFCU or Unit).

                  BACKGROUND
                  As established by Title XIX of the Social Security Act (SSA) (the
                  Medicaid statute), the mission of State MFCUs is to investigate and
                  prosecute Medicaid provider fraud and patient abuse and neglect under
                  State law.1 Under the Medicaid statute, each State must maintain a
                  certified Unit unless the Secretary of Health and Human Services (HHS)
                  determines that operation of a Unit would not be cost-effective because
                  (1) minimal Medicaid fraud exists in that State; and (2) the State has other,
                  adequate safeguards to protect Medicaid beneficiaries from abuse and
                  neglect.2 Currently, 49 States and the District of Columbia (States) have
                  created such Units.3 In Federal fiscal year (FY) 2011, combined Federal
                  and State grant expenditures for the Units totaled $208.6 million.4,
                  Each Unit must employ an interdisciplinary staff that consists of at least an
                  investigator, an auditor, and an attorney to carry out its duties and
                  responsibilities in an effective and efficient manner.5 Unit staff review
                  complaints provided by the State Medicaid agency and other sources and
                  determine their potential for criminal prosecution. In FY 2011, the
                  50 Units collectively reported 1,230 convictions, 906 civil settlements or
                  judgments, and recoveries of approximately $1.7 billion.6, 7


                  1
                    Social Security Act (SSA) §§ 1903(q)(3) and 1903(q)(4).

                  2
                    SSA §§ 1902(a)(61) and 1903(q)(3). Regulations at 42 CFR § 1007.11(b)(1) add that 

                  the Unit’s responsibilities may include reviewing complaints of misappropriation of

                  patients’ private funds in residential health care facilities. 

                  3
                    National Association of Medicaid Fraud Control Units (NAMFCU). NAMFCU 

                  Participating States. Accessed at http://www.namfcu.net/states on March 24, 2013. 

                  North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                  4
                    Office of Inspector General (OIG) State Medicaid Fraud Control Units Fiscal Year 

                  2011 Grant Expenditures and Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/expenditures_statistics/fy2011.asp on March 29, 2013.

                  5
                    SSA § 1903(q)(6) and 42 CFR § 1007.13.

                  6
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2011 Grant Expenditures and 

                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2011.asp on April 16, 2012.
                  7
                    Ibid. Recoveries are defined as the amount of money that defendants are required to
                  pay as a result of a settlement, judgment, or prefiling settlement in criminal and civil
                  cases and may not reflect actual collections. Recoveries may involve cases that include
                  participation by other Federal and State agencies.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                        1
                  The Medicaid statute requires Units to have either statewide authority to
                  prosecute cases or formal procedures to refer suspected criminal violations
                  to an office with such authority.8 If the Unit is in a State that does not
                  have an entity with statewide authority to criminally prosecute individuals,
                  the Unit must have formal procedures approved by OIG to ensure that
                  cases are referred to State entities with criminal prosecutorial authority
                  and that the State entities cooperate with the Unit.9 In 44 States, the Units
                  are located within offices of State Attorneys General; in Tennessee and the
                  remaining 5 States, the Units are located in other State agencies.10
                  Each Unit must be a single, identifiable entity of State government,
                  distinct from the single State Medicaid agency, and must develop a formal
                  agreement (i.e., Memorandum of Understanding (MOU)) that describes its
                  relationship with that agency.11
                  Oversight of the MFCU Program
                  The Secretary of HHS delegated to OIG the authority to annually certify the
                  Units and to administer grant awards to reimburse States for a percentage of
                  their costs of operating certified Units.12 All Units are currently federally
                  funded on a 75-percent matching basis, with the States contributing the
                  remaining 25 percent.13 To receive Federal reimbursement, each Unit must
                  submit an application to OIG.14 OIG reviews the application and notifies the
                  Unit if it is approved and certified. Approval and certification are for a
                  1-year period; the Unit must be recertified each year thereafter.15
                  Under the Medicaid statute, States must operate Units that effectively carry
                  out their statutory functions and meet program requirements.16 OIG
                  developed and issued 12 performance standards to define the criteria it
                  applies in assessing whether a Unit is effectively carrying out statutory




                  8
                    SSA § 1903(q)(1).
                  9
                    SSA § 1903(q)(1)(B).
                  10
                     NAMFCU. NAMFCU Participating States. Accessed at http://www.namfcu.net/states
                  on March 29, 2013.
                  11
                     SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).
                  12
                     The portion of funds reimbursed to States by the Federal Government for its share of
                  expenditures for the Federal Medicaid program, including the MFCUs, is called Federal
                  Financial Participation (FFP).
                  13
                     SSA § 1903(a)(6)(B).
                  14
                     42 CFR § 1007.15(a).
                  15
                     42 CFR § 1007.15(b) and (c).
                  16
                     SSA § 1902(a)(61).




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                       2
                  functions and meeting program requirements.17 Examples of criteria include
                  maintaining an adequate caseload through referrals from several sources,
                  maintaining an annual training plan for all professional disciplines, and
                  establishing policy and procedure manuals to reflect the Unit’s operations.
                  See Appendix A for a complete list of the performance standards used for
                  this evaluation.
                  Tennessee Medicaid Program
                  TennCare, Tennessee’s Medicaid program, provides services primarily
                  through managed care organizations (MCO).18, 19, 20 Tenncare contracts
                  with and pays MCOs a fixed amount for enrolled beneficiaries. Each
                  MCO contracts with and pays medical providers of services to its
                  beneficiaries. Tennessee contracts with four MCOs: UnitedHealthcare
                  Community Plan, BlueCare, TennCare Select, and Amerigroup.21 Total
                  TennCare expenditures in Tennessee for FY 2011 were $8.4 billion.22
                  Tennessee Unit
                  The Tennessee Unit is housed within the Tennessee Bureau of
                  Investigation (TBI). Neither TBI nor the Tennessee Attorney General has
                  statewide criminal prosecutorial authority; therefore, under the Medicaid


                  17
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/files/Performance%20Standards.pdf on August 15, 2012.
                  Subsequent to this evaluation, OIG published revised performance standards, effective
                  June 1, 2012. See 77 Fed. Reg. 32645 (June 1, 2012) for the new performance standards.
                  Accessed at
                  http://oig.hhs.gov/authorities/docs/2012/PerformanceStandardsFinal060112.pdf on
                  August 15, 2012.
                  18
                     The Centers for Medicare & Medicaid Services (CMS). Medicaid Managed Care
                  Enrollment Report. Accessed at http://www.medicaid.gov/Medicaid-CHIP-Program-
                  Information/By-Topics/Data-and-Systems/Downloads/2011-Medicaid-MC-Enrollment-
                  Report.pdf on March 29, 2013. MCOs are, generally, health plans that provide and
                  coordinate health care, in return for a predetermined monthly fee, through a defined
                  network of physicians and hospitals.
                  19
                     Ibid. CMS classifies managed care plans as: (1) Medicaid-only MCOs,
                  (2) commercial MCOs, (3) prepaid inpatient health plans, (4) prepaid ambulatory health
                  plans, (5) primary care case management providers, (6) health insuring organizations,
                  (7) programs for all-inclusive care for the elderly, and (8) other organizations that have
                  the structure of the managed care plan but are not described above. For purposes of this
                  report, we use the term MCO to describe all of the above.
                  20
                     MCOs in Tennessee do not provide dental and drug benefits. Kaiser Family
                  Foundation, Tennessee, Comprehensive Medicaid Managed Care Organization Acute
                  Care Benefit Carve-Outs, October 2010. Accessed at
                  http://www.statehealthfacts.org/profileind.jsp?ind=987&cat=4&rgn=44 on
                  October 9, 2012.
                  21
                     TennCare, Managed Care Organizations. Accessed at http://www.tn.gov/tenncare/pro-
                  mcos.shtml on December 7, 2012. 

                  22
                     MFCU Statistical Data for FY 2011. Accessed at https://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/ on November 14, 2012.





Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                          3
                  statute, the Tennessee Unit is required to refer cases for prosecution to
                  other State authorities with such authority. The Tennessee Unit also refers
                  cases for Federal prosecution to the three U.S. Attorney’s Offices in
                  Tennessee.
                  The Tennessee Unit expended a total of $3.7 million in combined Federal
                  and State funds for FY 2011.23 At the time of our review, the Unit
                  employed 34 staff members including 1 director, 3 supervisors, 2 auditors,
                  2 attorneys, 2 computer programmers, 1 statistical analyst, 4 support staff,
                  and 19 investigators. The Unit is located in the State capital of Nashville,
                  and has regional offices in Jackson, Memphis, Chattanooga, Knoxville,
                  Columbia, and Johnson City. The Unit has policies and procedures for
                  most operations, and often uses the TBI operations manual. The Unit
                  maintains an electronic system for case management and tracking, known
                  as the Investigative Support Information System (ISIS). Unit investigators
                  prepare case information for Unit administrative staff who enter the
                  information into ISIS. The Unit director and supervisors use ISIS to
                  review case files and run case status reports. Unit case files contain
                  opening and closing supervisory approvals, as well as documentation of
                  supervisory reviews.

                  METHODOLOGY
                  Our review covered FYs 2009 through 2011. We based our review on an
                  analysis of data from seven sources: (1) a review of policies, procedures,
                  and documentation of the Unit’s operations, staffing, and caseload; (2) a
                  review of financial documentation; (3) structured interviews with key
                  stakeholders; (4) a survey of Unit staff; (5) structured interviews with the
                  Unit’s director and supervisors; (6) an onsite review of case files that were
                  open in FYs 2009 through 2011; and (7) an onsite review of Unit
                  operations. We analyzed data from all seven sources to describe the
                  caseload; assess the performance of the Unit; identify any opportunities
                  for improvement; and identify any instances in which the Unit did not
                  fully meet the performance standards or was not operating in accordance
                  with laws, regulations, and policy transmittals.24 We conducted the onsite
                  review in August 2012.
                  Data Collection and Analysis
                  Unit Documentation Review. We reviewed policies, procedures, and
                  documentation of the Unit’s operations, staffing, and cases, including its

                  23
                    OIG analysis of Standard Form 425 submitted by Tennessee MFCU for FY 2011.
                  24
                    All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                         4
                  annual reports, quarterly statistical reports, and responses to recertification
                  questionnaires.
                  Review of Financial Documentation. We reviewed Unit financial
                  practices to determine compliance with applicable laws and regulations
                  and to determine the need for additional internal controls. Prior to the
                  onsite review, we reviewed the Unit’s financial policies and procedures,
                  its response to an internal control questionnaire, and MFCU grant-related
                  documents such as financial status reports. During the onsite review, we
                  tested a sample of the Unit’s purchase and travel transactions. In addition,
                  we reviewed a sample of time and effort records, vehicle records, and the
                  equipment inventory.
                  Stakeholder Interviews. We conducted structured interviews with key
                  stakeholders who were familiar with the operations of the Unit.
                  Specifically, we interviewed staff from the TennCare Department of Audit
                  and Program Integrity, hereinafter referred to as the State Medicaid
                  agency; the Attorney General’s Office, Medicaid Fraud and Integrity
                  Division; the TBI Criminal Investigation Division; Adult Protective
                  Services; the HHS OIG investigators who work with the Unit; the
                  Assistant United States Attorneys; and representatives from all four
                  MCOs. These interviews focused on the Unit’s interaction with external
                  agencies.
                  Unit Staff Survey. We administered an electronic survey to Unit staff.
                  Our questions focused on operations, opportunities for improvement, and
                  effective practices.
                  Unit Director, Supervisor, and Staff Interviews. We conducted structured
                  interviews with the Unit director, three regional supervisors, two
                  attorneys, and two auditors. We asked respondents to provide any
                  additional information to better illustrate the Unit’s operations, identify
                  opportunities for improvement and effective practices, and clarify
                  information we obtained from other data sources.
                  Case File Review. We selected a statistically valid, simple random sample
                  of 100 case files from the 378 cases open at some point during
                  FYs 2009 through 2011. We reviewed all 100 of these sampled case files
                  for documentation of supervisory approval for the opening and closing of
                  cases, periodic supervisory reviews, timeliness of case development, and
                  the Unit’s processes for monitoring the status and outcomes of cases.
                  From these 100 case files, we selected a further random sample of 46 files
                  for a more in-depth review of selected issues, such as the appropriateness
                  and timeliness of investigations.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)               5
                  Unit Operations Review. We reviewed the Unit’s operations during our
                  onsite visit. Specifically, we reviewed the process for receiving referrals,
                  electronic case management, security of case files, and general functioning
                  of the Unit.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)           6
                  FINDINGS

                  For FYs 2009 through 2011, the Tennessee Unit
                  obtained 96 criminal convictions and 22 civil
                  settlements, and reported recoveries of $181 million
                  For FYs 2009 through 2011, the Unit filed criminal charges against
                  111 defendants, obtained 96 criminal convictions, settled 22 civil cases,
                  and was awarded more than $10 million in criminal recoveries and
                  $171 million in civil recoveries. Provider fraud represented 63 percent of
                  the Unit’s open cases, patient abuse and neglect represented 31 percent,
                  and theft of patient funds represented 6 percent. The Unit’s cases
                  represented 30 different provider types; the most common were physicians
                  and home health aides.

                  The Unit obtained 96 criminal convictions and was awarded
                  more than $10 million in criminal recoveries
                  For FYs 2009 through 2011, the Unit filed criminal charges against
                  111 defendants and obtained 96 criminal convictions. Over half
                  (54 percent) of these convictions were fraud related, 30 percent involved
                  patient abuse and neglect, and 16 percent involved theft of patient funds.
                  Additionally, the Unit was awarded just over $10 million in criminal
                  recoveries. See Table 1.
                  Table 1: Unit Criminal Charges, Convictions, and Ordered Restitution,
                  FYs 2009–2011
                    Criminal Investigations                                             Charges                      Convictions
                    Fraud                                                                      58                            52
                    Patient Abuse and Neglect                                                  38                            29
                    Theft of Patient Funds                                                     15                            15
                       Total                                                                  111                            96
                    Criminal Restitution Ordered                                            $10,179,675


                  Source: OIG analysis of Unit data and quarterly statistical reports, FYs 2009 through 2011, 2012


                  The Unit obtained 22 civil settlements with more than
                  $171 million in civil recoveries
                  The Unit obtained 22 civil settlements as a result of fraud investigations
                  and global cases, resulting in more than $171 million in civil recoveries.25



                  25
                    Global cases are civil false claims cases involving the Federal Department of Justice
                  and other State MFCUs.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                                             7
                  Ninety-seven percent ($167 million) of these settlements were recoveries
                  from global settlements. See Table 2.

                  Table 2: Unit Civil Recoveries, FYs 2009–2011
                                                                                                                            Total
                                                                   FY 2009            FY 2010           FY 2011
                                                                                                                       Recoveries
                    Global                                    $48,467,120        $67,626,155        $50,630,659       $166,723,934
                    State Only                                  $2,327,933        $2,342,310                   $0       $4,670,243
                       Total                                  $50,795,053        $69,968,465        $50,630,659       $171,394,177

                  Source: OIG analysis of Unit data and quarterly statistical reports, FYs 2009 through 2011, 2012.


                  The Unit investigated one case that, although related
                  to an appropriate case, was not eligible under Federal
                  regulations for Federal funding
                  According to the Medicaid statute and Federal regulations, the Unit may
                  receive FFP only for fraud investigations that involve allegations of fraud
                  in the administration of the Medicaid program, in the provision of
                  Medicaid services, or in the activities of Medicaid providers.26 Our review
                  found that the Unit investigated a case that did not involve allegations
                  about these activities and, therefore, costs associated with that
                  investigation are not eligible for FFP. At the time, the Unit director
                  believed that the investigation was within the Unit’s purview because it
                  involved individuals and events related to a prior investigation and
                  therefore Unit agents were best suited to investigate the related matter.

                  The Unit referred all convicted health care providers
                  to OIG for program exclusion, but did not refer
                  nonprovider convictions
                  According to Performance Standard 8, the Unit should refer convictions to
                  OIG for purposes of program exclusion within 30 days or another
                  reasonable period after provider sentencing. The Unit referred all
                  convicted health care providers (85 percent of all convictions) to OIG.
                  However, the Unit did not refer to OIG convictions of nonproviders, such
                  as owners of businesses or foster parents. The Unit reported receiving
                  verbal OIG guidance that only convicted health care providers should be
                  referred to OIG, even though OIG requires that all convicted individuals
                  and entities be considered for exclusion.27

                  26
                    SSA § 1903(q)(3) and 42 CFR §§ 1007.11(a) and 1007.19(d). 

                  27
                    In addition to Performance Standard 8, SSA § 1128(a) specifies that individuals and

                  entities convicted of program-related crimes, patient abuse, health care fraud, and 

                  felonies relating to controlled substances must be excluded. 





Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                                               8
                  Of the convicted health care providers the Unit referred, nearly half
                  (48 percent) were referred within 30 days of sentencing; another
                  40 percent were referred within 90 days. The Unit referred the remaining
                  12 percent more than 91 days after sentencing. One convicted health care
                  provider was referred to OIG a full year after sentencing.

                  Although the Unit had a training plan, it did not
                  establish training-hour requirements for each
                  professional discipline
                  According to Performance Standard 12, the Unit should maintain an
                  annual training plan for all professional disciplines, including a
                  requirement for a minimum number of hours of training for each. The
                  Unit had a training plan and made funds available to staff for training.
                  However, the training plan did not specify a minimum number of training
                  hours for each professional discipline. All staff reported that the Unit
                  provided them with training opportunities and that the training they
                  received aided the mission of the Unit.28

                  Despite Unit efforts to increase referrals, the State
                  Medicaid agency and MCOs sent a small number of
                  fraud referrals to the Unit
                  According to Performance Standard 4, the Unit should have a process to
                  ensure adequate fraud referrals from the State Medicaid agency and other
                  sources. The Unit made efforts to ensure referrals were made, such as
                  updating its MOU with the State Medicaid agency and participating on
                  task forces with the State Medicaid agency and MCOs. However, the
                  State Medicaid agency and MCOs were responsible for a small percentage
                  of the Unit’s total fraud referrals —12 percent and 6 percent, respectively.
                  Most referrals of suspected fraud came from other sources, including
                  private citizens (37 percent) and law enforcement entities (14 percent).
                  See Table 3.




                  28
                    We recognize that attorneys, investigators, and auditors receive professional and law
                  enforcement training, and that the lack of a requirement for a minimum number of hours
                  of training does not necessarily mean that professional staff are unqualified.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                           9
                  Table 3: Fraud Referrals Received by the Unit, FYs 2009–2011

                    Source                                                              Number    Percentage

                    Private Citizens                                                       122         36.5%

                    Law Enforcement Entities                                                45         13.5%

                    State Medicaid Agency                                                   40         12.0%

                    Other (Includes HHS OIG, Provider Associations, Licensing Boards,
                                                                                            38         11.4%
                    Private Health Insurers, MFCU Hotline, and Ombudsman)

                    State Agencies                                                          28          8.4%

                    Prosecutors                                                             24          7.2%

                    MCOs                                                                    19          5.7%

                    Providers                                                               18          5.4%

                       Total                                                               334        100.0%

                  Source: OIG analysis of Unit data collection instrument, 2012.


                  The Unit made efforts to ensure the State Medicaid agency
                  referred a greater number of fraud referrals
                  The Unit and the State Medicaid agency reported attempting multiple
                  processes to ensure a greater number of fraud referrals. The first process,
                  effective at the beginning of the review period through June 2010,
                  involved the State Medicaid agency referring all fraud allegations to the
                  Unit. The second process, effective July 2010 through February 2011,
                  involved the State Medicaid agency making determinations regarding the
                  merit of fraud allegations and sending to the Unit only cases that the
                  agency deemed to warrant referral.29 The third and current process,
                  similar to the first, involves the State Medicaid agency referring all fraud
                  allegations to the Unit. However, the current process also involves the
                  State Medicaid agency conducting preliminary analysis on fraud
                  allegations and meeting with the Unit to discuss referrals.30 The Unit and
                  the State Medicaid agency attend monthly task force meetings, during

                  29
                     In March 2012, the CMS Medicaid Integrity Group (MIG) reviewed the State Medicaid
                  agency and found that providing only vetted criminal referrals to the Unit was not in
                  alignment with Federal regulation (42 CFR § 455.21), which requires State Medicaid
                  agencies to refer all cases of suspected provider fraud. MIG recommended that the State
                  Medicaid agency develop and implement policies and procedures to refer all suspected
                  provider fraud cases directly to the Unit. CMS, MIG, Tennessee Comprehensive
                  Program Integrity Review Final Report, March 2012. Accessed at
                  http://www.cms.gov/Medicare-Medicaid-Coordination/Fraud-
                  Prevention/FraudAbuseforProfs/Downloads/tnfy11comp.pdf on August 15, 2012.
                  30
                     This process was not in effect during our review period but was in effect at the time of
                  our onsite review.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                         10
                  which the Unit may accept referrals; ask the State Medicaid agency to
                  conduct more analysis; or decide, along with the State Medicaid agency,
                  to close referrals. The Unit and the State Medicaid agency updated their
                  MOU, effective March 2012, to reflect this new referral process.

                  Unit staff and stakeholders suggested that the small number
                  of fraud referrals from MCOs could be attributed to financial
                  disincentives
                  Although MCOs oversaw the State’s Medicaid providers, they referred
                  only 19 of the Unit’s 334 fraud referrals (6 percent). Unit staff and
                  stakeholders reported that although MCOs are contractually required to
                  report confirmed and suspected fraud, they have a financial disincentive to
                  do so.31 MCOs are not required to refer billing errors to the State
                  Medicaid agency or the Unit. Stakeholders suggested that MCOs may
                  label confirmed or suspected fraud as billing errors rather than as fraud
                  because MCOs are not allowed to recoup any share of overpayments
                  received from providers at the conclusion of an investigation.

                  Unit staff and stakeholders cited involvement on
                  various task forces as key to productivity
                  Unit staff and stakeholders reported that the relationships formed through
                  involvement on task forces, such as the Provider Fraud and Federal Health
                  Care Fraud task forces, were key to the Unit’s productivity. The Attorney
                  General’s Office formed the Provider Fraud Task Force in 2007 to
                  coordinate stakeholders in combating Medicaid fraud through increased
                  communication and collaboration. The Unit, the State Medicaid agency,
                  and stakeholders such as the Tennessee Department of Human Services’
                  Adult Protective Services unit and other State agencies attended monthly
                  meetings. Additionally, at least one MCO was present at each meeting to
                  discuss suspected fraud cases and all MCOs attended a quarterly meeting.
                  During the task force meetings, stakeholders engaged in discussions about
                  patterns of fraud and abuse, referrals, and case examples, and occasionally
                  offered training. The Unit also participated in three Federal Health Care
                  Fraud task forces in various parts of the State. According to the Unit
                  director, most of the Unit’s fraud cases are prosecuted federally, making
                  participation on these Federal task forces essential.




                  31
                    Section 2.20.2 of TennCare MCO contracts requires MCOs to report all confirmed or
                  suspected fraud and abuse to TennCare, TennCare Office of Program Integrity, TBI
                  MFCU, and/or OIG.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                   11
                  CONCLUSION AND RECOMMENDATIONS
                  For FYs 2009 through 2011, the Tennessee Unit obtained 96 criminal
                  convictions and 22 civil settlements and reported recoveries of
                  $181 million. Unit staff and stakeholders reported that involvement on
                  various task forces was key to the Unit’s productivity.
                  We identified one instance of noncompliance with applicable laws,
                  regulations, and policy transmittals. The Unit investigated a case that,
                  although related to an appropriate case, was not eligible under Federal
                  regulations for Federal funding. With the exception of this instance, our
                  review of compliance issues found no evidence of significant
                  noncompliance with applicable laws, regulations, or policy transmittals.
                  Additionally, we identified two instances in which the Unit did not fully
                  meet Performance Standards. The Unit referred all convicted health care
                  providers to OIG for program exclusion, but did not refer nonprovider
                  convictions. Finally, although the Unit had a training plan, it did not
                  establish training-hour requirements for each professional discipline.
                  To address the noncompliance issues and the opportunities for
                  improvement identified by our review, we recommend that the Tennessee
                  Unit:
                  Repay Grant Funds Spent on the Case That Was Not Eligible
                  Under Federal Regulations
                  The Unit should work with OIG to identify the staff hours and
                  expenditures associated with the ineligible case and repay the Federal
                  grant funds.
                  Refer All Convictions to OIG, Including Nonprovider
                  Convictions, in a Timely Manner
                  The Unit should refer all convictions, including nonprovider convictions,
                  to OIG for purposes of program exclusion. The Unit should improve its
                  processes for referring convictions to OIG and refer convictions within
                  30 days from the date of sentencing.
                  Establish Training-Hour Requirements for Professional
                  Disciplines
                  The Unit should revise its training plan to include a minimum number of
                  training hours for each professional discipline.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)          12
                  UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Unit concurred with all but the first of our three recommendations.
                  Regarding our second recommendation, the Unit stated that it now refers
                  nonprovider convictions in a timely manner to OIG for purposes of
                  program exclusion. The Unit stated that it had been operating under
                  instruction from OIG that it was not necessary to refer nonprovider
                  convictions to OIG. The Unit’s concurrence is consistent with
                  performance standard 8, which states that a MFCU should provide
                  “reports of convictions” to OIG within 30 days or other reasonable time
                  period, and does not limit such convictions to those involving health care
                  providers. OIG’s exclusion authority, contained in section 1128 of the
                  SSA, is similarly not limited to health care providers. Nonproviders,
                  especially for patient abuse cases, may be subject to conviction and should
                  be referred to OIG for potential program exclusion.
                  Regarding our third recommendation, the Unit stated that it modified its
                  training plan to include a minimum number of training hours for each
                  professional discipline.
                  The Unit did not concur with our first recommendation to repay grant
                  funds spent investigating the case that, under Federal regulations, was not
                  eligible for Federal funding. The Unit stated that it felt that the case in
                  question was an extension of an existing investigation, that the case was
                  within its purview, and that the Unit was justified in conducting the
                  investigation. While we agree that the case was an extension of an
                  authorized investigation, OIG has no authority to reimburse a Unit for the
                  investigation of cases that do not involve either health care fraud or patient
                  abuse or neglect. The Unit should work with OIG to determine the
                  amount of ineligible costs relating to the time spent on the case.
                  The full text of the Unit’s comments is provided in Appendix B. We did
                  not make any changes to the report based on the Unit’s comments.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)            13
                  APPENDIX A
                  Performance Standards for Medicaid Fraud Control Units
                  [59 Fed. Reg. 49080, Sept. 26, 1994]
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the OIG?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit have policy and procedure manuals?




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)             14
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                  4. 	A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the single State agency and other
                      sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?



Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)               15
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other Federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State's statutes when necessary and appropriate to
                           do so?



Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)              16
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                   10. 	A Unit should periodically review its memorandum of
                        understanding (MOU) with the single State Medicaid agency and
                        seek amendments, as necessary, to ensure it reflects current law
                        and practice. In meeting this standard, the following performance
                        indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                  11. 	The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                  12. 	A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?



Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)              17
                  APPENDIX B
                  Unit Comments




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)   18
                        We concur with this recommendation, but would like to include we had been operating under
                        instruction from HHS-OIG that it was not necessary to report non-provider convictions. In
                        accordance with your recommendation, we are now including non-provider convictions to OIG
                        for purposes of program exclusion, in a timely manner.

                        Although the Unit bad a t.-aining plan, it did not establish tnining-hou.- .-equi.-ements fo.­
                        each professional discipline.

                        We concur with this recommendation and have already modified our training plan to include a
                        minimum number of training hours for each professional discipline.

                        I appreciate the opportunity to respond to this report, and I am available to answer any questions
                        you may have. Please feel free to contact me or Special Agent in Charge Norman Tidwell at
                        615-744-4322 if you need additional information.

                         Sincerely

                           /S/
                         Mark Gwyn
                         Director

                         MRG/nt

                         xc: 	 Deputy Director Jeff Puckett
                               SAC Norman Tidwell




                         Page 2 of 2




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)                                        19
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Kevin Golladay, Regional
                  Inspector General for Evaluation and Inspections in the Dallas regional
                  office; Blaine Collins, Deputy Regional Inspector General; and
                  Ruth Ann Dorrill, Deputy Regional Inspector General.
                  Lyndsay Patty served as the Team Leader for this study. Other Office of
                  Evaluation and Inspections staff who conducted the study include
                  Ben Gaddis. Office of Investigations staff who provided support include
                  Ryan Houston and Jason Weinstock. Central office staff who provided
                  support include Susan Burbach, Kevin Farber, Debra Roush, and
                  Richard Stern.




Tennessee State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-06-12-00370)       20
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
